No. 19-930
IN THE SUPREME COURT OF THE UNITED STATES
CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT OF TREASURY;
UNITED STATES OF AMERICA,
Respondents.
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX

Pursuant to Rule 26.8 of the Rules of this Court, Petitioner respectfully moves
for leave to dispense with the requirement of a joint appendix in the above-captioned
case. The opinions of the United States Court of Appeals for the Sixth Circuit, the
Eastern District of Tennessee, and other materials related to the petition are
included in the appendix to the petition for a writ of certiorari. In Petitioner’s view,
no other portion of the record is material to the Court’s consideration of the question
presented.
Counsel for Respondents state that they consent to the requested relief.
For the foregoing reasons, the motion to dispense with the requirement of a
joint appendix should be granted.

July 6, 2020

Respectfully submitted,
/s/Patrick Strawbridge
Patrick Strawbridge
Counsel of Record
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consovoymccarthy.com
Counsel for Petitioner

2

